D
                                                                         VETERANS' EMPLOYMENT AND

U.S. Department of Labor
I
S
C                                                                        TRAINING SERVICE
U
S
S
I
O
N                          Office of Inspector General—Office of Audit
D
R
A
F
T




                                                                         VETS' OVERSIGHT OF FLORIDA'S
                                                                         JOBS FOR VETERANS STATE GRANTS
                                                                         PROGRAM NEEDS TO BE
                                                                         STRENGTHENED




                                                                                            Date Issued:     March 27, 2014
                                                                                         Report Number:    06-14-001-02-001
U.S. Department of Labor                                      March 27, 2014
Office of Inspector General
Office of Audit                                               VETS' OVERSIGHT OF FLORIDA'S JOBS FOR
                                                              VETERANS STATE GRANTS PROGRAM
                                                              NEEDS TO BE STRENGTHENED
BRIEFLY…
Highlights of Report Number 06-14-001-02-001, issued
to the Assistant Secretary for Veterans’ Employment
and Training.                                                 AUDIT RESULTS
                                                              VETS did not ensure Florida DEO’s JVSG staff
WHY READ THE REPORT                                           adequately provided intensive services to eligible
                                                              veterans. Florida DEO’s JVSG program did not
The U.S. Department of Labor, Veterans' Employment
                                                              maintain documentation showing that it had assessed
and Training Service (VETS) offers employment and
                                                              veterans’ employment needs, identified barriers to
training services to eligible veterans through its Jobs for
                                                              employment, developed a plan to address identified
Veterans State Grants (JVSG) Program. Under this
                                                              barriers, or provided appropriate intensive services.
grant program, funds are allocated to State Workforce
                                                              Without such information, VETS could not determine
Agencies in direct proportion to the number of veterans
                                                              whether the Florida DEO JVSG program was
seeking employment within their state. The grants
                                                              successfully meeting the employment needs of the
support two principal staff positions: Disabled Veterans
                                                              veterans it served.
Outreach Program (DVOP) specialists and Local
Veterans Employment Representatives (LVERs). DVOP
                                                              VETS policies contained conflicting guidance to the
specialists provide intensive services to meet the
                                                              states operating the JVSG program on the provision of
employment needs of disabled veterans and other
                                                              intensive services, did not define barriers to
eligible veterans, with an emphasis directed toward
                                                              employment, and did not specify documentation
serving veterans with barriers to employment. LVERs
                                                              requirements. Moreover, VETS’ monitoring of the
conduct outreach to employers and engage in advocacy
                                                              Florida DEO JVSG program did not include verifying the
efforts with hiring executives to increase employment
                                                              information the Florida DEO reported regarding the
opportunities for veterans.
                                                              services provided through its JVSG program. Instead,
                                                              VETS relied on the self-assessments of DVOP
VETS estimates that the U.S. military discharges about
                                                              specialists, interviews of Florida DEO staff, and
270,000 service members annually. Department of
                                                              summary activity data. These guidance and monitoring
Labor programs will be challenged to meet the
                                                              issues further impeded VETS’ ability to ensure that the
employment needs of this expected influx of veterans.
                                                              JVSG program in Florida was operating as intended.
For VETS specifically, the Department projects that
approximately 90 percent of future JVSG participants
will require intensive services, such as career planning      WHAT OIG RECOMMENDED
and counseling, skill assessment, referral to training        We recommended the Assistant Secretary for Veterans’
and support services, and post-transition follow-up, to       Employment and Training develop new JVSG intensive
overcome significant barriers to employment.                  service guidance for DVOP specialists and new JVSG
                                                              monitoring procedures to review intensive service
WHY OIG CONDUCTED THE AUDIT                                   documentation and verify states’ JVSG performance
                                                              data.
OIG conducted the audit of the JVSG program operated
by Florida’s Department of Economic Opportunity
                                                              The Assistant Secretary agreed with the
(DEO) to answer the following questions:
                                                              recommendations and described planned actions and
                                                              actions already in process to implement the
1.	 Did VETS ensure Florida DEO’s JVSG staff
                                                              recommendations.
    adequately provided intensive services to meet
    employment and training needs of veterans through
    its JVSG program?

2.	 Did VETS ensure Florida’s DEO reported JVSG
    program measures accurately?

READ THE FULL REPORT
To view the report, including the scope, methodology,
and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2014/06-14-
001-02-001.pdf.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                         VETS Oversight of Florida JVSG Program
                                   Report No. 06-14-001-02-001
                                                              U.S. Department of Labor – Office of Inspector General




Table of Contents


Inspector General’s Report .......................................................................................... 1


RESULTS ....................................................................................................................... 2


Objective 1 — Did VETS ensure Florida DEO's JVSG staff adequately provided 

intensive services to meet employment and training needs of veterans through its 

JVSG program? ............................................................................................................. 2

          Florida DEO's JVSG program did not document the assessment of

             veterans' employment needs, barriers to employment, or employment

             plans. Without this information, VETS could not determine if Florida's

             JVSG program met veterans' employment needs. .......................................... 2


Objective 2 — Did VETS ensure Florida's DEO reported JVSG program measures

accurately? .................................................................................................................... 7

          VETS cannot determine the validity of the performance information 

            reported by Florida DEO and, as a result, lacks assurance that the

            JVSG program in Florida is operating as intended. ......................................... 7


Recommendations ........................................................................................................ 8


Appendices
          Appendix A Background ..................................................................................... 11

          Appendix B Objectives, Scope, Methodology, and Criteria ................................ 13

          Appendix C Acronyms and Abbreviations .......................................................... 17

          Appendix D VETS Response to Draft Report ..................................................... 19

          Appendix E Acknowledgements ......................................................................... 21





                                                                              VETS Oversight of Florida JVSG Program
                                                                                        Report No. 06-14-001-02-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                         VETS Oversight of Florida JVSG Program
                                   Report No. 06-14-001-02-001
                                           U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




March 27, 2014

                             Inspector General’s Report



Keith Kelly
Assistant Secretary
 for Veterans’ Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

In 2002, Congress enacted Public Law 107-288, the Jobs for Veterans Act (JVA),
amending Title 38, United States Code (38 U.S.C.), to revise and improve employment,
training, and placement services for veterans. The Department of Labor’s Veterans’
Employment and Training Service (VETS) carries out the JVA by offering employment
and training services to eligible veterans through its non-competitive Jobs for Veterans
State Grants (JVSG) program.

The Florida Department of Economic Opportunity (DEO) received JVSG funds to help
employ Florida’s economically and educationally-disadvantaged veterans who faced
employment barriers, such as disabilities. As required by the JVA, the Florida DEO used
some of this funding to hire Disabled Veterans Outreach Program (DVOP) specialists to
focus on providing intensive services to these veterans with barriers to employment.
When DVOP specialists were unavailable, other JVSG staff members provided
intensive services to the veterans.

We conducted a performance audit of the Florida DEO’s JVSG program to answer the
following questions:

    1. Did VETS ensure Florida DEO’s JVSG staff adequately provided
       intensive services to meet employment and training needs of veterans
       through its JVSG program?

    2. Did VETS ensure Florida’s DEO reported JVSG program measures

       accurately?


To conduct our audit, we interviewed VETS personnel and reviewed legislative
requirements, policies, and directives regarding VETS’ guidance and monitoring of
JVSG activities at the state grantee level. We reviewed six JVSG technical
assistance/monitoring reports, interviewed officials at the Florida DEO, and reviewed


                                                           VETS Oversight of Florida JVSG Program
                                             1                       Report No. 06-14-001-02-001
                                                        U.S. Department of Labor – Office of Inspector General


DEO JVSG policy guidance, data collection for intensive services, and JVSG monitoring
policies.

We statistically selected 179 of the 3,618 veterans that Florida DEO reported to VETS
as having received intensive services and as having exited the JVSG program between
April 1, 2010, and March 30, 2011. We evaluated the veterans’ electronic case files
contained in the Employ Florida Marketplace (EFM) 1 system and any related supporting
hard copy documentation to determine if the documentation identified any barriers to
employment, and if the provided intensive services addressed those barriers. We also
reviewed the employment measures Florida DEO reported.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
results and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our results and conclusions based on our audit
objectives. Further background information appears in Appendix A. Our complete
scope, methodology, and criteria appear in Appendix B.

RESULTS

VETS could not ensure Florida DEO’s JVSG staff adequately provided intensive
services to eligible veterans or reported JVSG program measures accurately. Florida
DEO’s JVSG program did not maintain documentation showing it assessed veterans’
employment needs, identified barriers to employment, or provided appropriate intensive
services. As a result, veterans may not have been getting the services they needed and
reported program results may have been overstated.

The Assistant Secretary agreed with the recommendations and described planned
actions and actions already in process to implement the recommendations. VETS
response is contained in Appendix D.

Objective 1 — Did VETS ensure Florida DEO's JVSG staff adequately provided
              intensive services to meet employment and training needs of
              veterans through its JVSG program?

        Florida DEO's JVSG program did not document the assessment of veterans'
        employment needs, barriers to employment, or employment plans. Without this
        information, VETS could not determine if Florida's JVSG program met veterans'
        employment needs.



1
  EFM is an internet-based site that is linked between all of Florida's state and local workforce services and
resources. EFM is also used to collect JVSG performance data. The JVSG staff used the EFM system to document
JVSG activities, such as activity codes for intensive service and targeted populations, and documents the provider of
the services to the veteran. This data is used to prepare the VETS-200 reports.

                                                                       VETS Oversight of Florida JVSG Program
                                                          2                      Report No. 06-14-001-02-001
                                                         U.S. Department of Labor – Office of Inspector General


VETS could not ensure Florida DEO’s JVSG staff identified and addressed barriers to
employment for eligible veterans. Without documenting the identification of employment
barriers, Florida DEO’s JVSG staff could not demonstrate that veterans actually needed
intensive services or that the intensive services provided met veterans’ employment
needs. These conditions occurred because VETS did not have clear policies for states
to follow regarding the provision of intensive services and did not adequately monitor
Florida DEO’s JVSG program.

Inadequate Identification of Employment Barriers by Florida DEO

According to 38 U.S.C. § 4103A, DVOP specialists should provide intensive services to
meet the employment needs of eligible veterans, such as special disabled and other
disabled veterans. 2 In accordance with this subsection, DVOP specialists should also
place maximum emphasis on meeting the employment needs of veterans who are
economically or educationally disadvantaged.

VETS issued guidance to state grantees on this requirement through Veterans’ Program
Letters (VPL). VPL 07-10, effective June 29, 2010 stated DVOP specialists should
primarily provide intensive services to targeted veterans as listed in 38 U.S.C. § 4103A.
As such, the VPL allows states to tailor the delivery of DVOP specialists’ intensive
services to meet the needs of individual veterans with barriers to employment.

Additionally, VETS issued Special Grant Provisions for the JVSG program that provided
states instructions on how to prepare their state plans and operate the JVSG program,
including DVOP specialists’ responsibilities in providing intensive services. In
compliance with the Special Grant Provisions, Florida’s state JVSG plan required DVOP
specialists to use the case management approach when assisting eligible veterans. The
case management approach required identification of barriers to employment through
assessment, development of a plan of action, and documentation of the services
provided.

Our review of 179 Florida DEO veteran cases in the EFM system and related supporting
documents revealed that 135 (75 percent) lacked documentation identifying barriers to
employment. When projecting our sample to the universe of 3,618 cases, we concluded
2,953 (82 percent) veteran cases lacked adequate information to determine if the
veteran had an employment barrier. 3 Therefore, Florida DEO could not demonstrate if
the veterans needed intensive services or if the services JVSG staff provided overcame
the veterans’ employment barriers.

We identified 18 cases where notes, including relevant supporting documents, stated
the veterans had no barriers to employment, yet Florida DEO reported the veterans as
receiving intensive services anyway. For example, in one case, a JVSG staff member



2
    In cases where DVOP specialists are unavailable, other JVSG staff may provide services to the veteran.
3
    We are 95 percent confident that the number of exceptions is between 2,699 and 3,208 with a midpoint of 2,953.

                                                                       VETS Oversight of Florida JVSG Program
                                                           3                     Report No. 06-14-001-02-001
                                                        U.S. Department of Labor – Office of Inspector General


documented that he provided a veteran with Individual Counseling, 4 which is an
intensive service. The supporting case note stated the specialist sent the veteran an
email telling him to shorten his resume to two pages. However, prior to this occurring,
another case note documented the veteran received orientation and an assessment
(stating to shorten the length of his resume) from another American Job Center
employee who determined the veteran had no barriers to employment and was job
ready. 5 Because there were no barriers to employment identified, the veteran should not
have been provided intensive services. Florida’s DEO still counted this veteran as
receiving intensive services and obtaining employment after exiting the JVSG program.

We also determined that in 47 of the 179 cases (26 percent) there were either case
notes or an activity code stating the veterans had an Employability Development Plan
(EDP). An EDP lists challenges (barriers) to employment and the strategies needed to
overcome each identified barrier. Florida’s DEO could only provide us with 44 of the 47
EDPs, and of those, just 13 identified barriers to employment.

VETS’ Policies Unclear

VETS policies provided conflicting guidance to the states on what constituted the
provision of intensive services, did not define barriers to employment, and did not
require documentation of intensive service activities, as follows:

    1) Conflicting Intensive Service Guidance

         VPL 07-10 required DVOP specialists to attend case management training
         at the National Veterans’ Training Institute (NVTI). The NVTI case
         management training course required identification of barriers to
         employment through assessment, development of a plan of action to
         address the barriers, and documentation of services provided. While VPL
         07-10 requires DVOP specialists to be trained in case management, it did
         not require DVOP specialists to use the case management approach
         when providing intensive services. However, VETS Special Grant
         Provisions for the JVSG, Section II.F.2, require DVOP specialists to use
         the case management approach as taught by NVTI to deliver
         staff-assisted intensive services.

    2) No Definition of Barriers to Employment

         Both VPL 07-10 and VETS Special Grant Provisions, Section II.F.1,
         mention providing services to meet the needs of veterans with barriers to
         employment. However, neither provides examples or a definition of

4
  Individual Counseling is the process where an American Job Center associate and job seeker work together so that
the person may gain a better understanding and knowledge of the world of work and choose, change, or adopt a
vocation.
5
  An American Job Center provides a full range of assistance to job seekers under one roof. The centers offer training
referrals, career counseling, job listings, and similar employment-related services. DVOP specialists and JVSG staff
are located in the centers, along with other staff funded by DOL.

                                                                       VETS Oversight of Florida JVSG Program
                                                          4                      Report No. 06-14-001-02-001
                                          U.S. Department of Labor – Office of Inspector General


      barriers to employment nor did VETS provide any guidance to DVOP
      specialists regarding identification of veteran barriers to employment.

   3) No Requirement to Document Intensive Service Activity

      VPL 07-10 clarified intensive services to include:

          •	 Comprehensive assessment of education, skills, and abilities;
          •	 In-depth interviewing and evaluation to identify employment barriers
             and appropriate employment goals;
          •	 Group and individual career coaching;
          •	 Short-term pre-vocational services that may include development of
             learning and communication skills, interviewing skills, personal
             maintenance skills, and professional conduct to prepare individuals
             for career goals; and
          •	 Development of an individual employment plan that identifies
             employment goals, interim objectives, and appropriate services that
             will enable the veteran to meet his or her employment goals.

However, VPL 07-10 is silent on whether intensive services activities should be
documented and implies that only one of the intensive service activities has to be
provided to count as providing intensive services. VETS National Office and regional
staff confirmed only one service is necessary to be considered intensive services and
that VETS did not require documentation of these services. VETS relied on states to
determine what documentation, if any, was required to support intensive service
activities. Florida’s DEO JVSG guidance did not stipulate what documentation JVSG
staff must maintain to demonstrate what intensive services they provided to veterans.

VETS previous guidance, VPL 07-05, dated July 27, 2005, required DVOP specialists to
assess the veteran and develop a documented plan of action. However, VPL 07-10 did
not address the requirement of an assessment to identify barriers to employment and a
plan of action addressing the employment barriers. Without such an assessment to
identify employment barriers and action plan to address identified barriers, VETS was
unable to determine whether the Florida DEO provided veterans the services they
needed to overcome their employment barrier and help them find a job.

VETS’ Monitoring Inadequate

VETS’ monitoring of Florida DEO’s JVSG program did not include verifying whether
veterans that the Florida DEO reported as receiving intensive services had barriers to
employment and that the services provided addressed the barriers. Instead, VETS
relied on self-assessments of DVOP specialists, summary activity data (number of
veterans served), and interviews of Florida DEO staff during on-site reviews.

38 U.S.C. § 4102A (b) (6), requires VETS to monitor and supervise the use of JVSG
funds, and 38 U.S.C. § 4102A (b) (7), requires VETS to carry out annual performance

                                                      VETS Oversight of Florida JVSG Program
                                           5                    Report No. 06-14-001-02-001
                                                       U.S. Department of Labor – Office of Inspector General


reviews of the veterans employment, training and placement services provided through
employment delivery systems, including through DVOP specialists and through Local
Veterans Employment Representatives.

VETS Director’s Memorandum 13-04 contains the Technical Assistance Guide (TAG)
on the Assessment of the State Workforce Agency used to monitor the JVSG program.
The TAG provides guidance to each state’s federal Director for Veterans’ Employment
and Training (DVET) regarding the performance of monitoring responsibilities. 6 While
the oversight is the responsibility of VETS, DVETs are strongly encouraged to work with
their respective state representatives throughout the entire monitoring process.

In Florida, the DVET met with state officials to customize the questions for the DVOP
specialists and JVSG staff self-assessment forms. The DVET and her staff reviewed
self-assessments from 50 percent of the American Job Centers and conducted a desk
review. During the desk review, they reviewed Florida’s data from the EFM system and
intensive service activity data, such as how many veterans were provided intensive
services. The DVET then selected 5 to 7 American Job Centers for on-site reviews. The
on-site review consisted of an entrance conference that provided the results of the desk
review and any potential issues, based on the review of performance numbers from the
EFM system.

We reviewed six Florida DVET monitoring reports, four on-site reviews, and two desk
reviews from the regions where we selected our sampled veteran case files. The reports
stated all American Job Centers were in compliance with federal law, even though the
DVET team did not review supporting intensive service documentation (such as EDPs)
or case notes to verify intensive services were actually provided to veterans or if the
veteran needed intensive services. Our review of sampled veterans from the six regions
revealed 135 of 179 case files lacked documentation to determine if the veteran had an
employment barrier.

We presented these issues to VETS during our fieldwork. VETS officials told us they
generally concurred with our conclusions regarding lack of guidance and monitoring.
VETS stated it is developing new guidance that will:

      •	 ensure DVOP specialists provide veterans who have significant barriers to 

         employment with the array of intensive services they need to succeed;


      •	 define “significant barriers to employment” to implement the priority and 

         maximum emphasis requirements of 38 U.S.C. § 4103A(a); and


      •	 ensure the case management approach is utilized by DVOP specialists in 

         carrying out the provision of intensive services.


In addition, VETS told us it is developing new audit protocols that will replace its current
monitoring guidelines. The new protocols will address compliance issues and will
6
    Each state has a DVET, a VETS employee, who is responsible for monitoring and oversight of the JVSG program.

                                                                     VETS Oversight of Florida JVSG Program
                                                         6                     Report No. 06-14-001-02-001
                                                        U.S. Department of Labor – Office of Inspector General


provide regular validation of the quality of services provided to veterans with significant
barriers to employment.

Objective 2 — Did VETS ensure Florida's DEO reported JVSG program measures
              accurately?

        VETS cannot determine the validity of the performance information reported by
        Florida DEO and, as a result, lacks assurance that the JVSG program in Florida is
        operating as intended.

VETS did not ensure Florida DEO’s JVSG staff reported accurate JVSG intensive
services program measures. Based on available documentation, it could not be
determined if Florida DEO accurately reported its JVSG intensive services program
measures to VETS because Florida DEO did not document the identification of
veterans’ barriers to employment and VETS did not adequately monitor Florida DEO’s
JVSG program. Only 44 (25 percent) of the 179 sampled veteran cases identified
veterans’ barriers to employment, and just 30 of the 44 cases documented the intensive
services provided to address the identified barriers.

Florida’s DEO JVSG process did not require staff to document veterans’ barriers to
employment. However, as discussed previously, the Special Grant Provisions and
Florida’s State Plan required DVOP specialists to use the case management approach,
which required identification of barriers to employment through assessment,
development of a plan of action, and documentation of intensive services provided. For
the 30 veteran cases where Florida’s DEO properly identified barriers to employment
and intensive services to address the barriers, only 13 of 30 (43 percent) veterans
entered employment after exiting the program. However, the Florida DEO reported all
179 (100 percent) veterans received intensive services and 83 (46 percent) veterans
entered employment after receiving intensive services.

In VETS’ annual report to Congress, it stated that DVOP program measures take into
account the difficulty of serving veterans with particular barriers to employment by
“weighting” those measured outcomes. 7 Two of the three measures VETS used that
assess the efforts of DVOP specialists when serving veterans with barriers to
employment are the number of veterans who received intensive services, and the
number of veterans who entered employment after receiving intensive services.

VETS used VETS-200 C Report data to prepare the weighted outcomes in its report to
Congress. The VETS-200 reports contained JVSG performance data, including
intensive service activities. Florida’s DEO used its EFM system data to populate the
VETS-200 reports. The EFM system contained data such as veteran registration date,
military status, employment history, skills, training, and exit date. The JVSG staff used
the EFM system to document intensive service activities (via case notes), targeted
population, service providers, and exit date.

7
  Each veteran who enters employment after receiving intensive services is assigned a value or weight that is equal
to 1.25, the value or weight attributed to each veteran who enters employment without receiving intensive services.

                                                                      VETS Oversight of Florida JVSG Program
                                                         7                      Report No. 06-14-001-02-001
                                          U.S. Department of Labor – Office of Inspector General




As discussed on pages 5 and 6, VETS did not verify whether veterans that the Florida
DEO reported as receiving intensive services had barriers to employment or if the
services provided addressed any identified barriers. VETS’ monitoring did not require
reviewing veterans’ electronic case files in EFM or interviewing veterans to ascertain
that the intensive services JVSG staff provided met the employment needs of the
veterans.

38 U.S.C. § 4102A (b) (6) and (7), requires VETS to monitor and supervise the use of
JVSG funds and carry out annual performance reviews of the veterans’ employment,
training, and placement services provided through employment delivery systems,
including through DVOP specialists and through Local Veterans Employment
Representatives.

If VETS does not verify the accuracy of the JVSG intensive services program measures
data, it cannot assure Congress that the JVSG is operating as intended and meeting the
employment assistance needs of veterans.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Veterans’ Employment and Training:

  1. Develop new JVSG guidance to ensure DVOP specialists provide and document
     intensive services for eligible veterans who have significant barriers to employment
     by requiring DVOP specialists to identify and document the veterans’ barriers, and
     use the case management approach when providing intensive services.

  2. Develop new JVSG monitoring procedures for reviewing intensive services
     documentation maintained by DVOP specialists. These new procedures should
     require the review of case notes and supporting intensive services documentation
     as part of DVETS’ monitoring activities.

  3. Develop new JVSG procedures that verify state JVSG performance data.

We appreciate the cooperation and courtesies that VETS and Florida DEO personnel
extended to the Office of Inspector General during this audit. OIG personnel who made
major contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit



                                                      VETS Oversight of Florida JVSG Program
                                           8                    Report No. 06-14-001-02-001
              U.S. Department of Labor – Office of Inspector General




Appendices





                          VETS Oversight of Florida JVSG Program
               9                    Report No. 06-14-001-02-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                         VETS Oversight of Florida JVSG Program
              10                   Report No. 06-14-001-02-001
                                                        U.S. Department of Labor – Office of Inspector General


                                                                                                      Appendix A
Background

In 2002, Congress enacted Public Law 107-288, Jobs for Veterans Act (JVA), amending
Title 38 U.S.C. to revise and improve employment, training, and placement services
furnished to veterans. VETS provides employment and training services through its
JVSG program. JVSG is a noncompetitive grant awarded to each State Workforce
Agency (SWA). SWAs operate American Job Centers and are responsible for providing
employment and workforce information services in local communities. The American
Job Center delivery system is designed to provide seamless services to customers
using a variety of American Job Center system partners. The JVSG program is a
mandatory partner in the American Job Center system. Other partners include agencies
providing services such as the Employment Services, Workforce Investment Act (WIA)
Adult program, WIA Dislocated Worker program, and the Senior Community Services
Employment Program.

Under the JVSG program, funds are allocated to states in direct proportion to the
number of veterans seeking employment within their state. VETS' budget totaled $256.1
million in Fiscal Year (FY) 2010, of which the JVSG program received $165.4 million. In
FY 2010, the Florida DEO received $10 million for the JVSG program to fund two
principal positions, DVOP specialists and Local Veteran Employment Representatives.
For our audit period, Florida DEO allocated $5.6 million to the DVOP specialists.

DVOP specialists provide employment and training services to meet the needs of
veterans with barriers to employment. To accomplish this, DVOP specialists provide
intensive services to veterans with special employment and training needs. The
specialists are required to target special disabled veterans, disabled veterans, and other
veterans identified by VETS as needing intensive services. 8 DVOP specialists provide
direct services to veterans in the form of intensive services, or they can refer veterans to
other services within or outside the American Job Center system. In June 2010, VETS
policy guidance changed the roles and responsibilities of the JVSG staff. As a result,
staff were no longer required to perform an assessment and document a plan of action
for veterans receiving intensive services. Examples of intensive services now include
activities such as an evaluation to identify employment barriers; development of an
individual employment plan; and assessment of skills, education, and abilities.

Veterans can register and access services online or visit an American Job Center.
DVOP specialists will then work with the veterans, either electronically (e-mail), verbally
(phone call), or in-person to provide any intensive services. After providing intensive
services, the DVOP specialists will enter a case note and an intensive service activity
code in the EFM. DVOP specialists can also be located at other facilities, such as a
Military Medical Treatment Facility or a Department of Veterans Affairs Vocational
Rehabilitation and Employment office.

8
 Special disabled veterans are veterans who are entitled to compensation for a disability rated at 30 percent or more;
or, rated at 10 or 20 percent, if it has been determined that the individual has a serious employment disability; or, a
person who was discharged or released from active duty because of a service-connected disability.

                                                                       VETS Oversight of Florida JVSG Program
                                                          11                     Report No. 06-14-001-02-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                         VETS Oversight of Florida JVSG Program
              12                   Report No. 06-14-001-02-001
                                         U.S. Department of Labor – Office of Inspector General


                                                                                Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

We performed this audit of Florida’s JSVG program to answer the following questions:

   1. Did VETS ensure Florida DEO’s JVSG staff adequately provided intensive
      services to meet employment and training needs of veterans through its JVSG
      program?

   2. Did VETS ensure Florida’s DEO reported JVSG program measures accurately?

Scope

Our performance audit focused on VETS’ oversight and monitoring of the Florida JVSG
program, specifically, veterans who received intensive services and exited during the
period of April 1, 2010, through March 31, 2011. Our audit work was conducted at the
VETS National Office in Washington, DC, VETS Regional Offices in Atlanta, GA, and
Dallas, TX, and VETS Florida state office and Florida’s DEO headquarters in
Tallahassee, FL.

We conducted this performance audit in accordance with generally accepted
government auditing standards for performance audits. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our results and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our results and
conclusions based on our audit objectives.

Methodology

We interviewed VETS national office staff and reviewed legislative requirements,
policies, and directives. We conducted interviews with the Dallas and Atlanta acting
VETS regional administrators regarding guidance to SWAs and monitoring of the JVSG
activities at the state grantee level. We interviewed the DVET for the state of Florida
regarding the monitoring of the JVSG program and reviewed six DVET monitoring
reports. In addition, we interviewed an Employment and Training Administration (ETA)
official about data validation of the Labor Exchange Data System and ETA’s monitoring
efforts.

For our work at the Florida DEO, we interviewed officials and obtained information
related to DEO policy guidance and data collection for JVSG activities. We interviewed
DEO officials about their monitoring policies. We obtained and reviewed technical
assistance/monitoring reports for six JVSG sites.




                                                     VETS Oversight of Florida JVSG Program
                                          13                   Report No. 06-14-001-02-001
                                          U.S. Department of Labor – Office of Inspector General


To accomplish our audit objectives, we considered VETS’ relevant internal controls and
confirmed our understanding of these controls and procedures through interviews and
review of policies and procedures. However, our consideration of internal controls
relevant to our audit objectives would not necessarily disclose other matters that might
be significant deficiencies. Because of inherent limitations in internal controls,
misstatements or noncompliance may nevertheless occur and not be detected.

Data Reliability

We obtained an EFM data file containing Florida DEO’s JVSG performance data,
including intensive services. The EFM data was used to populate VETS-200 reports.
From the EFM data, we identified veterans who were reported as exiting the JVSG
program for the period of April 1, 2010, through March 31, 2011. We used this time
period to include those who exited and could have obtained Entered Employment
outcomes for the reporting periods available at the time we obtained the universe.

We performed a data reliability assessment to ensure we obtained a complete and
accurate data file in order to obtain a sample. To determine whether the data was
reliable, we performed various testing of the data elements, interviewed VETS, Florida
DEO, and ETA staff knowledgeable about the data, reviewed VETS 200 reports and
documentations for information about the EFM data and the system, including relevant
general and application controls, and compared the EFM data with the VETS-200
reports. We concluded the EFM data to be sufficiently reliable to be used in selecting
our sample of veterans who exited the JVSG program.

Sampling

From the EFM database, we extracted the veterans who exited between April 1, 2010,
and March 31, 2011, and received intensive services to develop a universe. We
identified our universe and sampling frame as the 3,618 veterans.

We used a stratified three-stage cluster random sampling plan to select our veterans.
There were 24 Regional Workforce Boards (RWB). Each RWB contains American Job
Centers (the numbers of Job Centers vary by RWB). In the first stage, 6 RWBs out of
24 were randomly selected. In the second stage, 20 American Job Centers were
selected from 6 RWBs. In the third stage, we randomly selected 179 veterans from the
20 American Job Centers.

To determine if the Florida DEO DVOP and JVSG staff identified the 179 veterans’
barriers to employment, we reviewed each veteran’s electronic case file contained in the
EFM system. The primary documentation showing intensive services were provided
were in the EFM case notes. If the case note or activity code identified the veteran had
an EDP, we requested that documentation from DEO. We evaluated the case notes
and/or EDP documentation for the sampled veterans' files to determine whether the
JVSG staff identified the barriers to employment, identified the services necessary to
address the barriers and provided the needed services. In addition, for program


                                                      VETS Oversight of Florida JVSG Program
                                           14                   Report No. 06-14-001-02-001
                                         U.S. Department of Labor – Office of Inspector General


measures, we determined, if the 179 veterans had JVSG staff identify barriers to
employment and had wages in the first quarter after exiting the program. We compared
our program measures with the VETS-200 report.

Criteria

   •   JVA of 2002

   •   38 U.S.C. Chapter 41

   •   VPL 07-05, dated July 27, 2005

   •   VPL 07-10, dated June 29, 2010

   •   VETS Special Grant Provisions, dated April 1, 2009, revised May 2011

   •   VETS Director’s Memorandum 13-04, dated May 24, 2004

   •   OMB Circular A-123, Management’s Responsibility for Internal Control




                                                     VETS Oversight of Florida JVSG Program
                                          15                   Report No. 06-14-001-02-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                         VETS Oversight of Florida JVSG Program
              16                   Report No. 06-14-001-02-001
                                        U.S. Department of Labor – Office of Inspector General


                                                                               Appendix C
Acronyms and Abbreviations

DEO             Department of Economic Opportunity

DOL             Department of Labor

DVET            Director for Veterans’ Employment and Training Service

DVOP            Disabled Veterans’ Outreach Program

EDP             Employability Development Plan

ETA             Employment and Training Administration

EFM             Employ Florida Marketplace

FY              Fiscal Year

JVA             Jobs for Veterans Act

JVSG            Jobs for Veterans State Grants

NVTI            National Veterans Training Institute

OIG             Office of Inspector General

RWB             Regional Workforce Board

SWA             State Workforce Agency

TAG             Technical Assistance Guidance

U.S.C.          United States Code

VETS            Veterans’ Employment and Training Service

VPL             Veterans’ Program Letter

WIA             Workforce Investment Act




                                                    VETS Oversight of Florida JVSG Program
                                         17                   Report No. 06-14-001-02-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                         VETS Oversight of Florida JVSG Program
              18                   Report No. 06-14-001-02-001
                                                        U.S. Department of Labor – Office of Inspector General


                                                                                                         Appendix D
VETS Response to Draft Report


     U.S. Department of Labor                 Assistant Secretary for
                                              Veterans' Em ployme nt and Training
                                              Washington, D.C. 20210

           OCT ZZ 2013




          MEMORANDUM TO:                   ELLIOT P. LEWIS
                                           Assistant Inspector General for Audit




                                           :Ho:::~~rid~O Prow~
          FROM:


          SUBJECT:                                                                     Report No
                                           06-13-001-02-00 I


          Thank you for the opportunity to comment on the draft report, "Veterans' Employment and
          Training Service (VETS) Oversight ofFlorida's Jobs for Veterans State Grant (JVSG) Program
          Needs to Be Strengthened" (06-1 3-001 -02-001). Your recommendations in the report (in bold)
          are as follows:

             •   Develop new JVSG guidance tu ensure DVOP specialists provide and document
                 intensive services for eligible veterans who have significant barriers to employment
                 by requir ing DVOP specialists to identify and document the veterans' barriers, and
                 use the case management approach when providing intensive services.

          VETS concurs with this recommendation. Disabled Veterans' Outreach Program (DVOP)
          specialists should provide and document intensive services to veterans with significant barriers to
          employment. Although all barriers to employment are not easily recognized or previously
          documented in a record, an in-depth assessment should be made early in the evaluation process.
          The barrier to employment that is being addressed through intensive services should also be
          documented and the case record updated if more barriers manifest during case management.
          Since the period covered by the audit, steps have been taken consistent with this
          recommendation. Guidance is being developed for implementation in FY 2014 and training on
          assessing veterans' needs and documenting intensive service activities is currently conducted at
          the National Veterans' Training Institute.

                  Develop new JVSG monitoring procedures for reviewing intensive services
                  documentation maintained by DVOP specialists. During on-site reviews, ensure
                  DVETs review case notes and supporting intensive services documentation.

          VETS concurs w ith this recommendation and the need for an effective monitoring protocol that
          allows the agency to assess the delivery of intensive services. During FY 2013, VETS published
          Director's Memorandum 03- 13 (attached), which provides guidance outlining the audit process




                                                                        VETS Oversight of Florida JVSG Program
                                                         19                       Report No. 06-14-001-02-001
                                                   U.S. Department of Labor – Office of Inspector General




     to be carried out at the state and local levels to determine a state's adherence to the statutory
     roles and responsibilities of JVSG staff. Section 241 of the VOW to Hire Heroes Act of 20 II
     requires VETS to perform these audits. The audit guidance instructs the VETS staff person to
     review an appropriate sampling of case files of veterans who were provided case management as
     part of the provision of intensive services within the last four completed calendar quarters. The
     guidance also instructs VETS staff to ensure DVOP specialists are documenting services
     provided, and if that documentation reflects appropriately in the State Workforce Agency's
     Management Infonnation System.

        •   Develop new JVSG procedures that verify state JVSG performance data.

     VETS concurs that JVSG performance data should be verified for accuracy. In FY 2014, VETS
     anticipates the release of joint guidance with ETA, which clarifies the roles and responsibilities
     of JVSG staff, and proper referral of participants to the JVSG program. Specifically, this
     guidance will provide a definition of significant barriers to employment and emphasize the
     importance of providing increasing rates of intensive services to participants with these barriers.

     Upon release of that guidance, and as a part of regular monitoring and oversight VETS will
     instruct its staff to ensure that states:

        I. Have provided appropriate guidance to DVOP specialists regarding their responsibilities
           in provid ing intensive services to program participants;
        2. Have properly coded service levels in their management information system to capture
           the types of ~t:rvices provided to program participants; and
        3. Have properly documented the provision of services to participants in individual
           participant files.

     If there are questions regarding this memorandum please address them to the VETS point of
     contact, Gordon Burke, at (202) 693-4707.


     Attachment: Director's Memorandum 03-13, issued 06/21 /2013 (with 2 attachments)




- - - - ---    ----




                                                                   VETS Oversight of Florida JVSG Program
                                                    20                       Report No. 06-14-001-02-001
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix E
Acknowledgements

Key contributors to this report were Richard A. Pena (Audit Director), Michael
Kostrzewa (Audit Manager), Samantha Cash-Johnson, Dorothy Dorsey, Enrique
Lozano, Marsha Secuskie, Barry Winnicki, Ajit Buttar, Christine Allen, and Steve
Witherspoon.




                                                      VETS Oversight of Florida JVSG Program
                                           21                   Report No. 06-14-001-02-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                         VETS Oversight of Florida JVSG Program
              22                   Report No. 06-14-001-02-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
